SUPERFUND ACTIVITIES IN THE
 ENVIRONMENT AND NATURAL
   RESOURCES DIVISION FOR
 FISCAL YEARS 2004 AND 2005

       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 07-43
           September 2007
         SUPERFUND ACTIVITIES IN THE
 ENVIRONMENT AND NATURAL RESOURCES DIVISION
        FOR FISCAL YEARS 2004 AND 2005

                        EXECUTIVE SUMMARY

       The Comprehensive Environmental Response, Compensation and
Liability Act of 1980 (known as CERCLA or Superfund), which was
expanded by the Superfund Amendments and Reauthorization Act of
1986, established the Superfund program to clean up the nation’s
worst hazardous waste sites.1 CERCLA seeks to make those
responsible for the improper disposal of hazardous waste bear the
costs for their actions. It also established the Hazardous Substance
Superfund Trust Fund (Trust Fund) to finance clean up actions where a
liable party cannot be found or the third party is incapable of paying
clean up costs. The Trust Fund also pays for the Environmental
Protection Agency’s (EPA) enforcement, management activities, and
research and development.

      Executive Order 12580, issued January 23, 1987, gives the
Attorney General responsibility for all Superfund litigation. Within the
Department of Justice (DOJ), the Environment and Natural Resources
Division (ENRD) was assigned to administer cases against those who
violate CERCLA’s civil and criminal pollution-control laws. In fiscal
year (FY) 1987, EPA entered into interagency agreements with ENRD
and began reimbursing ENRD for its litigation costs. EPA authorized
reimbursements to ENRD of $27.9 million for FY 2004 and
$26.9 million for FY 2005 in accordance with EPA Interagency
Agreements DW-15-93796801 and DW-15-92194601, respectively.




      1
         See Pub. L. No. 96-510, 94 Stat. 2767 (1980) and Pub. L. No. 99-499, 100
Stat. 1613 (1986)


                                      -i-
      The EPA and ENRD Statement of Work required ENRD to
maintain a system that documented its litigation costs. To this end,
ENRD used a cost distribution system designed and maintained by a
private contractor. The system was designed to process financial data
from the ENRD Expenditure and Allotment (E&A) Reports into:
(1) Superfund direct costs by specific case, broken down between
direct labor costs and all other direct costs; (2) non-Superfund direct
costs; and (3) allocable indirect costs.2

      As required by CERCLA, the DOJ Office of the Inspector General
conducted this audit to determine if the cost allocation process used by
ENRD and its contractor provided an equitable distribution of total
labor costs, other direct costs, and indirect costs to Superfund cases
during FYs 2004 and 2005. We compared costs reported on the
contractor-developed Accounting Schedules and Summaries for
FYs 2004 and 2005 to costs recorded on DOJ accounting records to
review the cost distribution system used by ENRD to allocate incurred
costs to Superfund and non-Superfund cases.

       In our judgment, ENRD provided an equitable distribution of
total labor costs, other direct costs, and indirect costs to Superfund
cases during FYs 2004 and 2005. However, we make three
recommendations to improve ENRD operations and ensure compliance
with DOJ directives: (1) update its case designation procedures
(outlined in the ENRD December 20, 2001, memorandum,
Determination of Superfund Cases) to encompass the reorganized
Natural Resources, Wildlife and Marine Resource, Indian Resource, Law
and Policy, and the Executive Office litigation sections; (2) ensure that
travel authorizations are approved prior to a traveler proceeding on a
trip; and (3) ensure all subobject code 2508 transactions are allocated
to the correct Superfund case number.




       2
           The E&A Report is a summary of the total costs incurred by ENRD during
the fiscal year. The report includes all costs (both liquidated and unliquidated) by
subobject class and a final indirect cost rate calculation for the fiscal year. Other
direct costs charged to individual cases include special masters, expert witnesses,
interest penalties, travel, filing fees, transcription (court and deposition), litigation
support, research services, graphics, and non-capital equipment. Indirect costs are
the net of the Superfund funding provided in the EPA Interagency Agreements less
direct charges and are allocated based on the direct Superfund salary costs on each
case.


                                          - ii -
                           TABLE OF CONTENTS
                                                                                     Page

INTRODUCTION .......................................................................... 1

   Audit Approach ....................................................................... 4

FINDING AND RECOMMENDATIONS............................................... 5

   Superfund Costs for FYs 2004 and 2005 ..................................... 5

   Reconciliation of Contractor Accounting Schedules and
   Summaries to E&A Reports ...................................................... 6

   Superfund Case Reconciliation .................................................. 7

   Superfund Cost Distribution...................................................... 8

   Conclusion ........................................................................... 14

   Recommendations................................................................. 14

Statement on Compliance with Laws and Regulations..................... 15

APPENDIX I -       OBJECTIVE, SCOPE, AND METHODOLOGY ............... 16

APPENDIX II - 2005 CASES IN SAMPLE REVIEW ........................... 17

APPENDIX III - FY 2004 ACCOUNTING SCHEDULES
               AND SUMMARIES ................................................ 18

APPENDIX IV - FY 2005 ACCOUNTING SCHEDULES
              AND SUMMARIES ................................................ 26

APPENDIX V - ENRD'S RESPONSE TO THE DRAFT REPORT ............. 34

APPENDIX VI - OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
              SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
              REPORT ............................................................. 37
                              INTRODUCTION

       In 1980, the Congress passed the Comprehensive Environmental
Response, Compensation, and Liability Act (CERCLA or Superfund) to
clean up hazardous waste sites throughout the United States for fiscal
years (FY) 1981 through 1985.3 The law addressed growing concerns
about the need to clean up abandoned hazardous waste sites and the
future release of hazardous substances into the environment. When
CERCLA was enacted, the Environmental Protection Agency (EPA) was
assigned responsibility for preparing a National Priorities List to
identify sites that presented the greatest risk to human health and the
environment. Waste sites listed on the National Priorities List were
generally considered the most contaminated in the nation, and EPA
funds could be spent to clean up those sites. The clean up of these
sites was to be financed by the potentially responsible parties –
generally the current or previous owners or operators of the site. In
cases where the potentially responsible party could not be found or
were incapable of paying clean up costs, CERCLA established the
Hazardous Substance Superfund Trust Fund (Trust Fund) to finance
clean up efforts. The Trust Fund also pays for EPA’s enforcement,
management, and research and development activities.

       Because CERCLA was set to expire in FY 1985, Congress passed
the Superfund Amendments and Reauthorization Act (SARA) in 1986.4
SARA stressed the importance of using permanent remedies and
innovative treatment technologies in the clean up of hazardous waste
sites, provided EPA with new enforcement authorities and settlement
tools, and increased the authorized amount of potentially available
appropriations for the Trust Fund to $8.5 billion for FYs 1987 through
1991.

      Executive Order 12580, issued January 23, 1987, gives the
Attorney General responsibility for all Superfund litigation. Within the
Department of Justice (DOJ), the Environment and Natural Resources
Division (ENRD) was assigned to administer cases against those who
violate CERCLA’s civil and criminal pollution-control laws. ENRD
performs Superfund litigation and support through its following
sections: Appellate, Environmental Crimes, Environmental Defense,
Environmental Enforcement, Land Acquisition, Natural Resources, Law



      3
          Pub. L. No. 96-510, 94 Stat. 2767 (1980)
      4
          Pub. L. No. 99-499, 100 Stat. 1613 (1986)


                                       -1-
and Policy, Wildlife and Marine Resources, Indian Resources, and the
Executive Office.

      Beginning in FY 1987, the EPA entered into interagency
agreements with ENRD to reimburse ENRD for its litigation costs
related to its CERCLA activities. As shown in the following table,
budgeted reimbursement for Superfund litigation represented, on
average, about one-third of ENRD’s total budget during the 19-year
period from FY 1987 through FY 2005.

               Comparison of ENRD’s Appropriations
             and Budgeted Superfund Reimbursements
                           (1987 to 2005)
                                   Budgeted
                   ENRD
                                   Superfund    Total ENRD
      FY       Appropriations
                               Reimbursements     Budget
     1987          $23,195,000           $11,550,000       $34,745,000
     1988          $26,194,000           $18,473,000       $44,667,000
     1989          $26,456,000           $22,100,000       $48,556,000
     1990          $34,713,000           $28,754,000       $63,467,000
     1991          $43,683,000           $32,799,000       $76,482,000
     1992          $49,177,000           $35,607,000       $84,784,000
     1993          $51,445,000           $34,534,000       $85,979,000
     1994          $53,364,000           $33,809,000       $87,173,000
     1995          $58,170,000           $33,879,860       $92,049,860
     1996          $58,032,000           $32,245,000       $90,277,000
     1997          $58,049,000           $30,000,000       $88,049,000
     1998          $61,158,000           $29,963,500       $91,121,500
     1999          $62,652,000           $30,500,000       $93,152,000
     2000          $65,209,000           $30,000,000       $95,209,000
     2001          $68,703,000           $28,500,000       $97,203,000
     2002          $71,300,000           $28,160,000       $99,460,000
     2003          $70,814,000           $28,150,000       $98,964,000
     2004          $76,556,000           $28,150,000      $104,706,000
     2005          $90,856,000           $27,150,000      $118,006,000

     Total     $1,049,726,000        $544,324,360 $1,594,050,360
     Source: ENRD Budget History Report for FYs 1987 through 2005




                                   -2-
       The EPA and ENRD Statement of Work required ENRD to
maintain a system that documented its Superfund litigation costs.
Accordingly, ENRD instituted a management information system
designed by Rubino & McGeehin, Consulting Group, Incorporated
(contractor). The system was designed to process financial data from
ENRD’s Expenditure and Allotment (E&A) Reports into: (1) Superfund
direct costs by specific case, broken down between direct labor costs
and all other direct costs, (2) non-Superfund direct costs, and
(3) allocable indirect costs.5

     The EPA authorized ENRD reimbursements of $27.9 million for
FY 2004 and $26.9 million for FY 2005 in accordance with Interagency
Agreements DW-15-93796801 and DW-15-92194601, respectively.

       Excise taxes imposed on the petroleum and chemical industries
as well as an environmental income tax on corporations maintained
the Trust Fund through December 31, 1995, when the taxing authority
for Superfund expired. Since that time, Congress has not enacted
legislation to reauthorize the tax. Therefore, the only funding for the
Trust Fund are monies recovered through Superfund litigation.
Consequently, the significance of ENRD’s Superfund litigation can be
seen in the commitments and recoveries the EPA has obtained, with
the EPA receiving over $5.9 billion in commitments to clean up
hazardous waste sites and recovering $4.4 billion from potentially
responsible parties for FYs 1988 - 2005, as shown below.6




       5
           The E&A Report is a summary of the total costs incurred by ENRD during
the fiscal year. The report includes all costs (both liquidated and unliquidated) by
subobject class and a final indirect cost rate calculation for the fiscal year. Other
direct costs charged to individual cases include special masters, expert witnesses,
interest penalties, travel, filing fees, transcription (court and deposition), litigation
support, research services, graphics, and non-capital equipment. Indirect costs are
the net of the Superfund funding provided in the EPA Interagency Agreements less
direct charges and are allocated based on the direct Superfund salary costs on each
case.
       6
         Commitments are estimated funds from potentially responsible parties for
the clean up of hazardous waste sites. Recoveries are funds actually received by
EPA that include Superfund cost recovery, oversight costs, and interest.


                                          -3-
                    Estimated Commitments and Recoveries
                                (1988 to 2005)

               FY           Commitment                 Recovery
             1987              $           0             $12,000,000
             1988                $10,000,000             $32,000,000
             1989               $106,000,000             $73,000,000
             1990                $10,000,000             $56,000,000
             1991               $186,000,000            $182,000,000
             1992               $225,000,000            $211,000,000
             1993               $187,000,000            $326,000,000
             1994               $148,000,000            $490,000,000
             1995               $117,000,000            $204,000,000
             1996               $101,000,000            $338,000,000
             1997               $279,000,000            $333,000,000
             1998               $403,000,000            $306,000,000
             1999               $385,000,000            $329,000,000
             2000               $429,000,000            $152,000,000
             2001             $1,417,000,000            $562,000,000
             2002               $562,000,000            $276,000,000
             2003               $471,000,000            $180,000,000
             2004               $285,000,000             $92,000,000
             2005               $646,000,000            $265,000,000
             Total            $5,967,000,000          $4,419,000,000
          Source: ENRD Commitment and Recovery Report for FYs
          1987 – 2003, and Interagency Agreement for FYs 2004 and 2005

Audit Approach

       The objective of the audit was to determine if the cost allocation
process used by ENRD and its contractor provided an equitable
distribution of total labor costs, other direct costs, and indirect costs to
Superfund cases during FYs 2004 and 2005. To accomplish our
objective, we assessed whether: (1) ENRD identified Superfund cases
based on appropriate criteria, (2) costs distributed to cases were
limited to costs reported in E&A Reports, and (3) adequate internal
controls existed over the recording of direct labor time to cases and
the recording of other direct charges to accounting records and
Superfund cases.7



      7
         Additional information about our audit objective, scope, and methodology
are contained in Appendix I.


                                       -4-
             FINDING AND RECOMMENDATIONS

           Superfund Costs for FYs 2004 and 2005

       We reviewed financial activities and procedures used by
       ENRD to document, compile, and allocate direct and
       indirect costs charged to Superfund cases. In our
       judgment, ENRD provided an equitable distribution of total
       labor costs, other direct costs, and indirect costs to
       Superfund cases during FYs 2004 and 2005. However, we
       make three recommendations to improve ENRD operations
       and ensure compliance with DOJ directives: we
       recommend that ENRD update its case designation
       procedures, ensure that travel authorizations are approved
       prior to the traveler proceeding on the trip, and ensure all
       subobject code 2508 transactions are allocated to the
       correct Superfund case number.

      We designed the audit to compare costs reported on the
contractor-developed accounting schedules and summaries for
FYs 2004 and 2005 (see Appendix III and Appendix IV) to the
information recorded on DOJ accounting records, and to review the
cost distribution system used by ENRD to allocate incurred costs to
Superfund and non-Superfund cases. To accomplish this, we
performed the following tests:

   •   Compared Superfund total costs recorded as paid on the E&A
       Reports to the amounts reported as Total Amounts Paid on the
       year-end accounting schedules and summaries, and traced the
       costs to Superfund cases.

   •   Reviewed ENRD’s methodology for identifying Superfund cases
       by comparing a select number of cases against ENRD case
       assignment criteria.8

   •   Reviewed direct labor and indirect costs distributed to Superfund
       cases against the contractor-developed methodology, and
       compared other direct costs to source documents to validate
       their allocability to Superfund cases.



       8
        ENRD memorandum dated December 20, 2001, provides guidance on the
determination of Superfund cases.


                                   -5-
      We performed these steps to ensure that costs distributed to
Superfund and non-Superfund cases were based on the total actual
costs for FYs 2004 and 2005, that the distribution methodology used
and accepted in prior years remained viable, and that selected costs
were supported by evidence that documented their allocability to
Superfund and non-Superfund cases. These tests helped us determine
if ENRD provided an equitable distribution of total labor, other direct
costs, and indirect costs to Superfund cases during FYs 2004 and
2005.

Reconciliation of Contractor Accounting Schedules and
Summaries to E&A Reports

       To ensure that the distribution of costs to Superfund and non-
Superfund cases was limited to total costs incurred for each fiscal
year, we compared the amounts reported on the E&A Reports to those
in the contractor’s Schedule 6, Reconciliation of Total ENRD Expenses.
According to the E&A Reports, total ENRD expenses were $104 million
in FY 2004 and $108 million in FY 2005 as shown in the following
table:

                             ENRD Expenses
                             by Fiscal Year

               Description           2004               2005
       Salaries                  $ 59,855,153       $ 61,532,266
       Benefits                    14,318,383         15,420,948
       Travel                       2,391,766          2,618,572
       Freight                        315,211            362,261
       Rent                        12,725,851         15,411,284
       Printing                        69,470            124,386
       Services                    13,210,494         11,287,561
       Supplies                       713,257            619,548
       Equipment                      830,135            671,477

       Total                    $104,429,720        $108,048,303
       Source: ENRD E&A Reports for FYs ending 09/30/04 and 09/30/05




                                   -6-
We then traced the E&A amounts to the distributions on Schedule 5,
Superfund Costs by Object Classification, and Schedule 2, Superfund
Obligation and Payment Activity By Fiscal Year of Obligation. We
found that the amounts on these schedules reconciled through
Schedule 6 to the E&A Reports.

      After reconciling the contractor accounting schedules and
summaries to the E&A Reports, we focused on the distribution of costs
to Superfund. Our starting point for reviewing the distribution system
was to identify and reconcile ENRD cases as Superfund or non-
Superfund. This enabled us to extract only Superfund data from the
ENRD data to compare to the accounting schedules and summaries.
The Superfund costs in Schedule 2 of the accounting schedules and
summaries for FYs 2004 and 2005 reported the following:

             Superfund Distributed Costs by Fiscal Year9
          Cost Categories                   2004                 2005
Labor                                     $ 7,595,887            $ 7,063,184
Other Direct Costs                          2,083,287              1,111,321
Indirect Costs                             14,668,225             13,564,536
Superfund Program Expenses                    529,284                349,153
Unliquidated Obligations                    3,163,698              4,874,211
   Totals                                $28,040,381             $26,962,405
 Source: Schedule 2 of the contractor’s accounting schedules and summaries.



Superfund Case Reconciliation

       ENRD litigated Superfund and non-Superfund cases. To control
the processing of cases, ENRD assigned each case unique identifying
numbers and maintained an annual database of Superfund cases. To
ensure that the contractor used the appropriate Superfund database,
we reconciled the contractor’s Superfund database to ENRD’s original
Superfund database. This database identified 1,031 Superfund cases
in FY 2004 and 1,081 cases in FY 2005 that incurred costs. We also
reviewed the Superfund case designation criteria and case files to
establish the method used by ENRD to identify Superfund cases, and
to determine if cases were identified in accordance with established
criteria.

      9
         The amounts listed in this table reflect actual reimbursements. The
interagency agreements budgeted $28,150,000 and $27,150,000 for FYs 2004 and
2005, respectively.


                                     -7-
      We randomly selected 39 cases from the FY 2005 Superfund
database to test whether ENRD sections adhered to case designation
procedures outlined in the December 20, 2001, ENRD memorandum,
Determination of Superfund Cases.10 We reviewed the cases against
ENRD case documents including case intake worksheets, case opening
forms, case transmittals, and e-mails. These documents referenced
laws, regulations, or other information that established the cases as
either Superfund or non-Superfund for tracking purposes.

       We found that all 39 cases reviewed contained proper
referencing documentation in the case files to justify the Superfund
classification. However, we noted ENRD’s December 20, 2001,
memorandum, Determination of Superfund Cases, needs to be
updated to appropriately reference the reorganized Natural Resources,
Wildlife and Marine Resource, Indian Resource, Law and Policy, and
the Executive Office litigation sections in ENRD.

Superfund Cost Distribution

      Since we found that ENRD’s case identification method
adequately identified Superfund cases, we next reviewed the system
used by the contractor to distribute direct labor, indirect costs, and
other direct costs charged to Superfund cases. Following are the
results of our review of the cost categories.

Direct Labor

       During the 2 years under review in this audit, the contractor
continued using the labor distribution system from prior years, which
we had reviewed and accepted in prior audits. ENRD provided the
contractor with electronic files that included employee time reporting
information and biweekly salary information downloaded from the
National Finance Center.11 The contractor used the following formula
to distribute labor costs monthly:




       10
          See Appendix II for the 39 cases we sampled. ENRD Sections included
were Environmental Crimes, Environmental Defense, Environmental Enforcement,
Land Acquisition, Law and Policy, Executive Office, Appellate, and Natural Resources.

       11
         The National Finance Center processes biweekly payroll information for
many federal government agencies, including the DOJ.


                                        -8-
Salary Starting Point:   Employee Biweekly Salary

Divided by:              Employee Reported Biweekly Work Hours

Equals:                  Biweekly Hourly Rate

Multiplied by:           Employee Reported Monthly Superfund and
                         Non-Superfund Case Hours

Results In:              Distributed Individual Monthly Labor Case Cost

       For purposes of our review, we:

   •   Matched the total Superfund and non-Superfund labor costs to
       costs reported on the E&A Reports for FYs 2004 and 2005.

   •   Reviewed ENRD electronic labor files and selected salary files
       provided to the contractor and the resultant electronic files
       prepared by the contractor to summarize costs by employee and
       case.

   •   Extracted and reconciled Superfund case costs from the
       contractor files by using validated Superfund case numbers
       discussed earlier in this report.

       We performed selected database matches to compare ENRD
employee time and case data against the contractor’s electronic files
used to prepare the accounting schedules and summaries, and to
identify Superfund case data. As mentioned in the Superfund Case
Reconciliation section of this report, we were able to rely on the
Superfund case database to match the ENRD case list to the
contractor’s completed schedules. We compared ENRD’s electronic
files to the contractor’s and determined that the total Superfund hours
were 168,825 for FY 2004 and 147,614 for FY 2005. To determine the
number of Superfund cases with direct labor costs for each fiscal year,
we compared the Superfund billed time data, which included 1,031
cases in FY 2004 and 1,081 cases in FY 2005, to the electronic files
prepared by the contractor. Through our database matches, we found
no reportable differences in the total number of Superfund cases with
direct labor costs for each fiscal year.




                                  -9-
       Next, using the contractor’s electronic files, we determined that
the direct labor costs for Superfund cases were $7,595,887 for
FY 2004 and $7,063,184 for FY 2005. We traced these amounts to the
accounting schedules and summaries, and selected one month in each
fiscal year (May 2004 and January 2005) to review the effective
employee hourly rates calculated by the contractor. We found no
reportable differences.

      Overall, we were able to verify the accumulation of reported
hours, the development and application of hourly rates, and the
extraction of labor costs for Superfund cases. Therefore, in our
judgment this process provided an equitable distribution of direct labor
costs to Superfund cases during FYs 2004 and 2005.

Indirect Costs

       In addition to direct costs incurred for specific cases, ENRD
incurred indirect costs that were allocated to all cases. These include
salaries, benefits, travel, freight, rent, communication, utilities,
supplies, and equipment. The contractor distributes indirect costs to
individual cases using an indirect cost rate that is calculated on a
fiscal year basis.

      The indirect cost rate is comprised of an ENRD indirect rate and
a Superfund specific indirect rate. To calculate the ENRD indirect rate,
the contractor subtracted the amount of direct costs from the total
costs incurred according to ENRD’s E&A report, and divided this
amount by total direct labor for the period. To calculate a Superfund
specific indirect rate, the contractor identified indirect costs that
support only Superfund activities and divided these costs by Superfund
direct labor. The rates for FYs 2004 and 2005 are as follows:

                  Indirect Cost Rates by Fiscal Year

                     Category                       2004         2005
     ENRD Indirect Rate                             187%         188%
     Superfund Specific Indirect Rate                22%          27%
        Combined Indirect Cost Rate                 209%         215%
    Source: Schedule 4 of accounting schedules and summaries, percentages
    rounded to nearest whole percent




                                    - 10 -
       Using the E&A Reports and the contractor’s electronic files, we
 reconciled the total indirect amounts to the accounting schedules and
 summaries, Schedule 4, Indirect Rate Calculation, to ensure that the
 contractor used only paid costs to accumulate the expense pool. We
 determined that the total amount of indirect costs for FY 2004 was
 $59,505,112 versus the contractor’s calculation of $59,505,111 ($1
 variance). Furthermore, we determined that the total amount of
 indirect costs for FY 2005 was $63,826,319 versus the contractor’s
 calculation of $63,826,318 ($1 variance). These variances had a
 negligible impact upon the indirect cost rates and are considered
 immaterial. In our judgment, the indirect expenses calculated by the
 contractor are materially accurate. Therefore, we found that this
 process provided for an equitable distribution of indirect costs to
 Superfund cases during FYs 2004 and 2005.

 Other Direct Costs

        The other direct costs incurred by ENRD and distributed to
 Superfund during FYs 2004 and 2005 are provided in the following
 table.

        Superfund Other Direct Costs by Fiscal Year

          Subobject Code and Description                       2004           2005
1153-Special Masters Compensation                          $      95,417    $ 45,692
1157-Expert Witness Fees                                       2,287,056     1,015,843
2100-Travel and Transportation                                  540,555        373,483
2411-Printing and Reproduction, Court                             6,565         18,698
     Instruments
2499-Printing and Reproduction, All Other                         1,367            40
2508-Reporting and Transcripts-Deposition                       148,439       125,847
2509-Reporting and Transcripts-Grand Jury
2510-Reporting and Transcripts-Court                                9,773        4,478
2529-Litigation Support                                        1,650,136     1,011,763
2534-Research Services
2537-Advisory and Assist                                              141
2557-Litigation Graphics                                              892        2,146
2563-Interest Penalties-Government                                    187            18
2598-Miscellaneous Litigation Expenses                              5,486         851
2599-Other Services                                                45,563
3129-Non-Capitalized Automated Litigation
     Support Equipment
          Totals                                           $4,791,577       $2,598,859
 Source: The contractor’s electronic files for FYs 2004 and 2005


                                         - 11 -
      As part of our audit, we reviewed selected FY 2005 direct cost
transactions in the following four subobject codes:

      1157   –   Expert Witness Fees,
      2100   –   Travel and Transportation,
      2508   –   Reporting and Transcripts – Deposition, and
      2529   –   Litigation Support.

For FY 2005, these four subobject codes comprised 94 percent of the
transaction universe (923 transactions) and 97 percent of the FY 2005
other direct cost expenditures ($1.1 million). We stratified the high
dollar transactions within these subobject codes and tested
100 percent of these transactions and selected the remaining
transactions based on a statistical sample. In total, we reviewed 274
transactions totaling approximately $551,015 as detailed in the chart
below:

                         Other Direct Cost Tested

             Subobject Code       Transactions      Dollar
                  1157                  27            $305,505
                  2529                  13                42,892
                  2100                 168              148,916
                  2508                  66                53,702
              Totals                   274            $551,015
             Source: OIG other direct cost sample

      We designed our review of the transactions in other direct costs
to determine if the selected transactions included adequate support
against the following four attributes:

  •   Correct subobject code classification – verified that the correct
      subobject code was used to classify the cost;

  •   Correct Superfund/non-Superfund case classification – verified
      that the case number appearing on the documents matched the
      case number in the Superfund database;

  •   Correct dollar amount – verified that the dollar amount listed in
      the other direct costs database matched the amounts on the
      supporting documentation; and

  •   Proper approval – verified that the proper approval was obtained
      on the vouchers paying the other direct costs.


                                    - 12 -
      Our tests resulted in no exceptions in the Expert Witness Fees
(subobject code 1157) and Litigation Support (subobject code 2529)
transactions tested against the four reviewed attributes.

      As part of our testing for Travel and Transportation (subobject
code 2100), we reviewed 168 travel vouchers and found that 1 travel
voucher could not be located and 5 travel vouchers did not have
evidence that they were signed by an authorizing official after the
ENRD employees completed their travel.12 In addition, we found that
39 authorizations in FY 2005 were not approved prior to the requested
travel. We reported this finding in previous audit reports.13 In
response to this finding in our September 2003 report, ENRD issued a
memorandum, dated September 12, 2003, to Section Managers
reminding them of their responsibilities under the travel regulations to
document approval of travel prior to the travel being initiated. The
prior authorization of travel initiates the obligation of the travel costs
and ensures that the traveler is protected by an official authorization
during periods of travel. Again in this audit, we recommend that ENRD
require that all its employees have a documented authorization prior
to incurring any travel expense.

      For Reporting and Transcripts – Deposition (subobject code
2508) transactions, we found case numbers appearing on six vouchers
that did not match the case numbers in the Superfund database. The
error does not impact total Superfund dollars; however, it impacted
the dollars allocated to specific Superfund cases. ENRD attributed this
to an isolated keying error performed by an ex-employee. As a result
of our audit, ENRD reviewed all subobject code 2508 transactions with
the problem Superfund case number to ensure that the case number
was accurate. They determined that 14 additional transactions not
included in our testing sample also reflected the inaccurate Superfund
case number and subsequently corrected the case numbers.


       12
          ENRD officials explained that file copies of travel vouchers are made prior
to supervisor approval of the voucher and that is why no signature appeared on the
vouchers.
       13
           Department of Justice, Office of the Inspector General, Report Number
96-12, Superfund Activities in the Environmental and Natural Resources Division for
Fiscal Year 1994, May 1996; Department of Justice, Office of the Inspector General,
Report Number 00-08, Superfund Activities in the Environmental and Natural
Resources Division for Fiscal Year 1997, March 2000; and Department of Justice,
Office of the Inspector General, Report Number 03-34, Superfund Activities in the
Environmental and Natural Resources Division for Fiscal Years 2000 and 2001,
September 2003.


                                       - 13 -
      Based on our statistical sampling methodology and the results of
our testing, the error rates we identified fell below 3 percent or were
not considered material. Accordingly, we did not take exception to the
errors or project the results to the total universe of transactions in
FY 2005. In our judgment, ENRD maintains adequate internal controls
over the recording of other direct charges to accounting records and
Superfund cases.

Conclusion

       In our judgment, ENRD provided an equitable distribution of
total labor costs, other direct costs, and indirect costs to Superfund
cases during FY 2004 and FY 2005.

Recommendations

We recommend that ENRD:

   1. Ensure that the ENRD memorandum entitled Determination of
      Superfund Cases is updated to include all ENRD litigation
      sections.

   2. Ensure that all travel by ENRD employees is appropriately
      authorized prior to incurring any travel expense.

   3. Ensure that all FY 2004 and 2005 Superfund subobject code
      2508 transactions are allocated to the correct case number
      within the Superfund database and the Financial Management
      Information System.




                                  - 14 -
 Statement on Compliance with Laws and Regulations

       The purpose of the audit was to determine if the cost allocation
process used by ENRD and its contractor provided an equitable
distribution of total labor, other direct costs, and indirect costs to
Superfund cases during FYs 2004 and 2005. In connection with the
audit, as required by Government Auditing Standards, we reviewed
management processes and records to obtain reasonable assurance
concerning ENRD’s compliance with laws and regulations that if not
complied with, in our judgment, could have a material effect on
ENRD’s operations. Compliance with laws and regulations applicable
to ENRD’s management of Superfund litigation is the responsibility of
ENRD’s management.

      We conducted our review against relevant portions of CERCLA,
and did not identify any instance of ENRD noncompliance.




                                 - 15 -
                                                           APPENDIX I

         OBJECTIVE, SCOPE, AND METHODOLOGY

       The objective of the audit was to determine if the cost allocation
process used by ENRD and its contractor provided an equitable
distribution of total labor costs, other direct costs, and indirect costs to
Superfund cases during FYs 2004 and 2005. To accomplish the overall
objective, we assessed whether: (1) ENRD identified Superfund cases
based on appropriate criteria, (2) costs distributed to cases were
limited to costs reported in E&A Reports, and (3) adequate internal
controls existed over the recording of direct labor time to cases and
the recording of other direct charges to accounting records and
Superfund cases. We conducted our audit in accordance with
Government Auditing Standards issued by the Comptroller General of
the United States.

       The audit focused on, but was not limited to, financial activities
and the procedures used by ENRD to document, compile, and allocate
direct and indirect costs charged to Superfund cases from October 1,
2003, through September 30, 2005. We compared total costs
recorded as paid on the E&A Report to the amounts reported as Total
Amounts Paid on the year end accounting schedules and summaries,
and traced the costs to the Superfund cases for FYs 2004 and 2005.
We also reviewed direct labor costs and indirect costs distributed to
Superfund against the contractor-developed methodology for FY 2004
and FY 2005. We conducted a review of ENRD’s methodology for
identifying Superfund cases by comparing a select number of cases
against the ENRD case assignment criteria for FY 2005 and we
performed detailed transaction testing of other direct costs for
FY 2005.

      For our assessment of internal controls over the compilation of
direct labor charges, we relied on the results in the Office of the
Inspector General Report number 01-19, August 2001, Environmental
and Natural Resources Division Network Computer Security and Case
Management System Internal Control Audit.




                                   - 16 -
                                                APPENDIX II

            2005 CASES IN SAMPLE REVIEW
    Case Number            ENRD Litigation Section
90-11-2-196C        Appellate
90-11-3-07299       Appellate
90-11-3-128/5       Appellate
90-11-2-477/1       Appellate
90-12-02075         Appellate
198-48-00514/1      Environmental Crimes
198-37-00452        Environmental Crimes
198-77-00586        Environmental Crimes
198-41-00503        Environmental Crimes
198-32-00487/1      Environmental Crimes
198-77-00538        Environmental Crimes
90-11-6-17255       Environmental Defense
90-11-6-17385       Environmental Defense
90-11-5-05764       Environmental Defense
90-11-6-05510       Environmental Defense
90-11-6-16303       Environmental Defense
90-11-3-07531       Environmental Enforcement
90-11-2-07883       Environmental Enforcement
90-11-3-1638/2      Environmental Enforcement
90-11-2-07430       Environmental Enforcement
90-11-2-07912       Environmental Enforcement
90-11-3-07541       Environmental Enforcement
90-11-3-1651        Environmental Enforcement
90-11-3-863         Environmental Enforcement
90-11-3-269/3       Environmental Enforcement
90-11-2-07430/2     Environmental Enforcement
90-11-2-506/1       Environmental Enforcement
90-11-3-07377       Environmental Enforcement
90-11-3-06902/2     Environmental Enforcement
90-11-2-196A        Environmental Enforcement
33-22-2430-11053    Land
33-5-3131-10450     Land
33-10-886-11155     Land
33-41-128-07665     Land
33-46-444-11037     Land
90-12-02055         Law and Policy
90-12-01779         Law and Policy
90-1-23-10662       Natural Resources
90-1-23-10940       Natural Resources




                         - 17 -
                               APPENDIX III

FY 2004 ACCOUNTING SCHEDULES AND SUMMARIES




                   - 18 -
- 19 -
- 20 -
- 21 -
- 22 -
- 23 -
- 24 -
- 25 -
                                APPENDIX IV

FY 2005 ACCOUNTING SCHEDULES AND SUMMARIES




                   - 26 -
- 27 -
- 28 -
- 29 -
- 30 -
- 31 -
- 32 -
- 33 -
                             APPENDIX V

ENRD’S RESPONSE TO THE DRAFT REPORT




               - 34 -
- 35 -
- 36 -
                                                      APPENDIX VI

 OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND
  SUMMARY OF ACTIONS NECESSARY TO CLOSE THE
                    REPORT

      We provided a draft audit report to the ENRD for review and
comment. The ENRD’s comments, which detail the actions it has taken
or plans to implement in response to our recommendations, have been
included as Appendix V to this report. This Appendix summarizes our
analysis of the ENRD’s comments and proposed actions required to
close the report.

Recommendations:

1.   Closed. The ENRD updated its memorandum entitled
     Determination of Superfund Cases to include all ENRD litigation
     sections. Therefore, this recommendation is considered closed.

2.   Resolved. The ENRD agreed with our recommendation to
     ensure that all travel by ENRD employees is appropriately
     authorized prior to incurring any travel expense. In response,
     the ENRD composed a memorandum to distribute to ENRD
     managers reminding them of their responsibilities to authorize
     travel before a traveler incurs travel-related expenses. In
     addition, the ENRD stated that it will take five additional
     corrective measures: (1) post an announcement on the splash
     screen of ENRD’s intranet reminding all employees that they
     must have authorization to incur travel-related expenditures
     prior to traveling; (2) update the travel page of ENRD’s intranet
     to highlight this requirement; (3) include a new “travel policies”
     document in ENRD’s new employee orientation package;
     (4) disseminate an information memorandum to all ENRD
     employees, reminding them that they must comply with Section
     301, Part 2.1 of the Federal Travel Regulations; and
     (5) purchase a number of ink stamps to indicate that prior
     authorization has been provided by an authorizing official.

     As noted in the report, this finding has been reported in prior
     audits. Therefore, this recommendation can be closed when
     subsequent Superfund audits verify that ENRD employees
     received appropriate authorization prior to incurring travel-
     related expenses.


                                - 37 -
3.   Resolved. The ENRD agreed with our recommendation to
     ensure that all FY 2004 and 2005 Superfund SOC 2508
     transactions are allocated to the correct case number within the
     Superfund database and the Financial Management Information
     System (FMIS). In response, the ENRD generated a complete
     list of SOC 2508 Superfund transactions for FY 2004 and 2005 to
     locate each relevant invoice and compare the case number
     identified on the invoice to the case number keyed into FMIS.
     This recommendation can be closed when we review and
     evaluate documentation substantiating that ENRD reviewed all
     FY 2004 and 2005 Superfund SOC 2508 transactions, and
     corrected any errors noted during this review.




                               - 38 -
